                                                                         OIG Audit Report No. 09-10


Executive Summary

The Federal Employees' Compensation Act (FECA) provides compensation benefits to
                                                                                      2
federal civilian employees for disability due to personal traumatic injury10r disease
sustained while in the performance of duty. The FECA program is administered by the
Office of Workers' Compensation Programs (OWCP), a component ofthe Employment
Standards Administration (ESA) with the United States Department of Labor (DOL).

The Department of Labor reports the cost of providing FECA benefits has risen
dramatically since 1990 causing concern and prompting federal agencies to review their
Workers' Compensation Program (WCP). In 2007, for example, total U.S. Government
FECA benefit cost rose nearly 38 percent to over $2.6 billion from about $1.9 billion in
1997. Comparatively, at the National Archives and Records Administration (NARA) the
annual FECA benefit costs increased 83 percent from $645,611 in 1998 to nearly $1.2
million in 2008.

We audited NARA's WCP to determine whether management controls were efficient and
effective to ensure that appropriate benefits accrued to injured employees, costs were
adequately managed and controlled, and FECA guidelines were met. Overall, we found
serious deficiencies in NARA's WCP due to a lack of adequate program oversight and
effective program management. The lack of a centralized, well managed WCP resulted
in the program being vulnerable to fraud, waste and abuse. The deficiencies found
prevented NARA from meeting the intent ofFECA. Specifically we found; (1) long-term
case files were not monitored/managed; (2) a formal Return-to-Work program was not
developed; (3) NARA did not verify compensation benefits reported on chargeback cost
reports 3 ; (4) Continuation of Pay (COP)4 benefits were not consistently monitored; (5)
NARA's WCP lacked comprehensive written policies and procedures; (6) NARA lacked
guidance and training for NARA personnel involved in the WCP; (7) case files were both
missing and not adequately documented; and (8) employee claims were not processed
timely. Additionally, clear assignment ofWCP roles and responsibilities were not
established to ensure NARA's WCP was properly administered.

As a result of these weaknesses, we identified claimants who were receiving long-term
                                                                        5
compensation for up to 30 years despite failing to meet FECA guidelines for providing


1 A traumatic injury is an injury caused by an external force and is identifiable by time and place of
occurrence, as well as the part of the body affected. In addition, it must be caused by a single event, or
series of events, occurring during a single day or work shift.
2 An occupational disease is defmed as a condition produced in the work environment over a period longer
than one workday or shift. It may result from systemic infection, repeated stress or strain, exposure to
toxins, poisons, or fumes, or other continuing conditions of the work environment.
3 DOL provides federal agencies quarterly and annual reports, Detailed Chargeback Billing Lists,
summarizing workers' compensation expenses incurred for each employee.
4 To avoid disruption of an employee's income, the employee's agency continues to pay hislher regular
wages for up to 45 days. This initial time frame is referred to as the Continuation of Pay (COP) period.
5 Title 20, part to, section 506 of the Code of Federal Regulations (20 CFR 10.506) allows the employing
agency to monitor the medical status of injured employees so they can be returned to work at an
appropriate time. Generally long-term cases may be medically evaluated on an annual basis.

                                                     1
                              National Archives and Records Administration
                                                                 OIG Audit Report No. 09-10


medical documentation to support continued program eligibility. We identified claimants
who were not offered limited duty when capable; and when permanent restrictions
existed, not recommended for vocational rehabilitation in a timely manner. In addition,
NARA did not verify its workers' compensation chargeback reports or COP payments to
ensure claimants were paid accurately. We found several overpayments of compensation
benefits; in one case an employee was over paid $35,685.

The lack of oversight and program management given to NARA's WCP contributed to
the 83 percent rise in program costs over the last ten years. Cognizant management
officials attributed these programmatic failures to an overall lack of oversight by
responsible parties in prior years and the associated decentralization ofprogram
responsibility.

Management, recognizing the need to improve WCP oversight and program management,
initiated discussions and corrective measures during the course of this audit. We have
made six recommendations for action necessary to address the findings identified in this
report and to assist management in improving program stewardship and reducing NARA
WCP costs.




                                             2
                        National Archives and Records Administration
                                                                         OIG Audit Report No. 09-10


Background

The FECA as amended, 5 U.S.c. 8101 et seq., provides benefits to federal civilian
employees for disability due to personal traumatic injury or disease sustained while in the
performance of duty. The FECA program provides for payment of several types of
benefits, including compensation for wage loss, schedule awards6, and medical and
vocational rehabilitation services. The basic rate of compensation for injured employees
with no dependents is 66.67 percent of gross wages, increasing to 75 percent if
employees have one or more dependents. All workers' compensation benefits are tax
free, and there is no mandatory retirement age for employees collecting benefits.

The Department of Labor's (DOL) Employment Standards Administration (ESA), Office
of Workers' Compensation Programs (OWCP) has primary responsibility for the FECA
and is responsible for adjudicating new claims for benefits to injured employees and
assisting injured employees' return to work. For OWCP to determine workers'
compensation eligibility, the injured employee must provide medical and factual
evidence to establish five basic elements: (1) the claim was filed within the time limits
set by the FECA; (2) the injured or deceased person was an employee of the United
States government at the time of injury; (3) the injury, disease, or death did occur; (4) the
employee was in the performance of duty when the injury, disease, or death occurred; and
(5) the medical condition found was causally related to the claim injury, disease, or death.
DOL regulations for the FECA are contained in Title 20 ofthe Code of Federal
Regulations.

OWCP FECA costs are financed by the Employees' Compensation Fund (Fund).
Workers' compensation costs are assigned to employing agencies annually at the end of
the fiscal accounting period, which runs from July to June. Each year, OWCP furnishes
each agency with a "chargeback report" which is a statement of payments made from the
Fund on account of injuries to its employees. The agencies include these amounts in their
budget requests to Congress. The sums appropriated are deposited into the Fund.

While OWCP has final authority with regard to approving and paying workers'
compensation claims, the employing agency also bears certain responsibilities, such as
ensuring appropriate agency personnel understand their FECA responsibilities; notifying
injured employees of their rights and obligations under FECA; initiating the claim and
ensuring timely notification to OWCP; providing and tracking COP; helping employees
return to work as soon as possible; and monitoring the employee's medical status until a
physician states the employee can return to work. Guidance for these individual agency
responsibilities is contained in OWCP's publication CA-810 Injury Compensation for
Federal Employees, A Handbook for Employing Agency Personnel.

Current processing and management ofNARA's WCP cases at Regional Records Centers
are the responsibility of the respective Administrative Officer (AO). In the Washington
DC area and at Presidential Libraries, this function resides with an assigned Employee

6A schedule award is a fonn of compensation for specified periods of time for the permanent loss, or loss
of use, of certain members, organs, and functions of the body.

                                                    3
                              National Archives and Records Administration
                                                                                OIG Audit Report No. 09-10


Relations Specialist (ERS) in the Human Resources Services Division, Employee
Relations and Benefits Branch (NAHR). The ERS also provides advice as needed to the
AO's.

The Department of Labor reports the cost of providing FECA benefits has risen
dramatically since 1990 prompting federal agencies to review the effectiveness of their
Workers' Compensation Programs. From 1997 to 2007 total U.S. Government FECA
benefit costs rose nearly 38 percent to over $2.6 billion from about $1.9 billion. For
fiscal year 2007, DOL reports approximately 134,000 FECA recipients with 38 percent
(51,000) recipients on the periodic roll. 7

Comparatively, at NARA the annual FECA benefit costs increased 83 percent from
$645,611 in 1998 to nearly $1.2 million in 2008. NARA has 190 claimants with 16
percent (31) recipients on the periodic role.



                   Comparison of Percentage Change for Workers' Compensation Cost
                               Between NARAand All Federal Agencies
                 0.90
                 0.80

                 0.70

           CI)
                 0.60
           C)


          -co 0.50
           ;
           u
                 0.40
           ~      0.30
           CI)
          c..    0.20    +m+,........,.­
                  0.10
                  0.00 

                 -0.10 


                                                                 Fiscal Year 



To address the concern over rising FECA costs, the Departments of Labor and Commerce
co-sponsored a symposium for Offices oflnspectors General (OIGs) and drafted
protocols for audits, inspections, evaluations, and investigations ofFECA programs



7 The periodic roll is compensation for wage loss reserved for cases that involve clearly defmed and well
established long-term disability, early in the life of the case.

                                                            4
                                       National Archives and Records Administration
                                                                  OIG Audit Report No. 09-10


government-wide to provide a more coordinated approach for conducting FECA-related
work. This audit was conducted as part of the renewed emphasis by the OIG community.

Audit Objectives

The overall objectives of this audit were to determine whether management controls were
adequate for ensuring (1) the efficiency, effectiveness, and integrity ofNARA's WCP
and (2) NARA complied with established FECA regulations.

Specifically, this audit assessed whether NARA adequately addressed its WCP
responsibilities including:

   •	  Ensuring FECA responsibilities were understood by pertinent agency personnel.
   •	  Notifying injured employees of their rights and obligations under FECA.
   •	  Controverting inappropriate COP and/or questioning claims.
   •	  Initiating FECA claims and ensuring timely notification to OWCP.
   •	  Providing and tracking COP if employees are unal;Jle to work.
   •	  Assisting employees with returning to work as soon as possible by providing light
       or modified work duties.
   • 	 Monitoring the medical status of injured employees to ensure they are able to
       return to work as soon as possible.
   • 	 Reviewing the chargeback report.


Scope/Methodology
To determine whether NARA was effectively managing its WCP, we reviewed applicable
laws and guidance on the FECA program including the Federal Employees'
Compensation Act, as amended (5 V.S.c. 8100 et seq.); Title 20 Part 10 ofthe Code of
Federal Regulations; Department of Labor Publication CA-81O, Injury Compensation/or
Federal Employees; applicable audit reports by other Inspectors General; and additional
pertinent background materials.

To gain an understanding of the management controls related to NARA's WCP we
conducted interviews with key personnel within the Office of the Assistant Archivist for
Administration (NA), specifically, the Human Resources Division (NAH) located at
Archives II in College Park, Maryland. We developed a questionnaire and conducted
phone interviews to obtain key information on program oversight and case management
efforts performed at the regional record centers.

Our audit covered claims activity that included new claims filed and benefits paid for
existing claims from July 2004 through June 2008. We sampled and reviewed 34 of 190
current workers' compensation case files. The sample cases represented $835,147, or 71
percent of the $1,180,643 in FECA medical and compensation costs incurred by NARA
in fiscal year 2008. To ensure the case file reviews were reliable and consistent, we
developed a master checklist. The master checklist addressed such issues as the existence

                                              5
                         National Archives and Records Administration
                                                                   OIG Audit Report No. 09-10


of a case file, the presence of key forms, and other documentation needed to support 

continued eligibility including the date of the last case file review that would indicate any 

recent effort to reduce costs to the U.S. Government. 


This performance audit was conducted in accordance with generally accepted 

government auditing standards (GAGAS) between April 2008 and September 2008. 

These standards require that we plan and perform the audit to obtain sufficient, 

appropriate evidence to provide a reasonable basis for our findings and conclusions based 

on our audit objectives. We believe the evidence obtained provides a reasonable basis for 

our findings and conclusions based on our audit objectives. 





                                               6
                          National Archives and Records Administration
                                                                        OIG Audit Report No. 09-10


Findings and Recommendations

NARA's Management of its Workers' Compensation Program Lacks
Effective Program Oversight and Adequate Program Management

A lack of stewardship has adversely impacted the efficiency, effectiveness and integrity
ofNARA's Workers' Compensation Program (WCP). Cognizant NARA officials agree
that this condition exists because responsible parties in prior years failed to identify
policies and procedures, guidance, and an efficient organizational structure necessary to
support FECA compliance. Specifically, NARA did not develop an efficient
organizational structure by assigning centralized program responsibility for its WCP.
Government Accountability Office (GAO), Standards for Internal Control in the Federal
Government, states organizational structure provides the management framework for a
good internal control environment and that a program's organizational structure should
clearly define key areas of responsibility. NARA's decentralized structure has resulted
in a program that is, in effect, not being managed. The effect of this systemic, ongoing
failure is that NARA's WCP program has not met its objectives to the detriment of
NARA employees and agency operations. The program is vulnerable to fraud and abuse
and is not meeting the needs of those for whom the Act was crafted.

Our audit revealed that NARA' s WCP has been both decentralized and improperly
managed for years. The Human Resources Services Division (NAH) did not have an
assigned employee providing direct oversight over NARA's entire WCP. Rather, NAH
assigned an Employee Relations Specialist (ERS) to manage only the WCP cases in the
greater Washington DC area and at the Presidential libraries. The ERS WCP duties did
not extend to the Office of Regional Records Services (NR) where currently 62 percent of
NARA's annual workers' compensation cost resides. This function resided with the
respective regional Administrative Officer (AO). The audit identified that neither the
AOs nor prior responsible ERS had the necessary training and expertise in FECA laws,
duties and requirements8 .

At the inception of our audit, the ERS position responsible for the WCP in the greater
Washington DC area and the Presidential libraries was vacant9 . NAH, recognizing that
NARA did not have effective management controls over its WCP, recently hired an ERS
with extensive workers' compensation case management experience to: (1) provide
NARA-wide guidance to the regional WCP programs principally managed by the
Administrative Officers; and (2) manage and provide oversight of WCP cases at central
office and at the Presidential Libraries.




8 Moreover, as outlined in the ERS position description, the ERS assigned to manage WCP cases in the
greater Washington DC area and at the Presidential libraries was also responsible for other duties. In
addition, the most recent incumbent of the ERS position had worked only on a part-time basis.
9 The current Employee Relations Specialist reported for duty on January 8, 2008. Additionally, the Chief
of Employee Relations and Benefits (NAHR) and the Director ofNAH were also in transition. As a result,
the current Director ofNAH requested the audit be delayed.

                                                    7
                             National Archives and Records Administration
                                                                  OIG Audit Report No. 09-10


However, we found that the new ERS did not have sufficient time, resources and
authority to ensure NARA's WCP operated in a manner consistent with requirements and
provisions of the Act. The ERS position description did not provide clear assignment of
oversight responsibilities for NARA's WCP and that the ERS's duties were restricted to
the DC area and Presidential Library FECA claims. Further, the ERS's performance
standards did not (1) address duties related to workers' compensation emphasizing the
ERS's accountability for the outcome ofNARA's WCP or (2) contain performance
standards to measure progress in management of workers' compensation cases or
reduction of WCP cost.

While the recent staffing of an ERS with WCP experience is a positive change, the PD of
the ERS includes other work duties and limits the time to perform and manage FECA­
related issues. This constraint when paired with aforementioned limitations raises
impediments to NARA's ability to provide sufficient WCP oversight and management.

The Director ofNAH who assumed her position on January 6, 2008, indicated the current
decentralized program structure was a carryover from when NARA was part of the
General Services Administration (GSA). The Director ofNAH agreed NARA needs to
centralize processing and managing of its WCP. She stated, "centralization would be one
of many issues we will want to examine in the context of trying to strengthen and
improve NARA's workers' compensation program." The NAH Director committed her
support for the work of the OIG in this area and believes the outcome will prove useful in
addressing incumbent program deficiencies she recently inherited.

NR senior management officials believe the centralization ofWCP responsibilities and
duties would likely result in better decision making and associated cost reductions.
Further, they agreed a centralized WCP structure would.address the less than desirable
situation-regional AOs who are over tasked and under trained. The AOs interviewed
readily admitted they lacked required knowledge ofFECA program management and
were unable to fully commit to the needs of their regional WCP because of competing
priorities. Senior NR management and the AOs interviewed agreed that removing
program management responsibility from the regional field offices and centralizing the
management responsibility at NAH would be a more effective program structure.

The lack of a centralized, well managed WCP has resulted in the program being
vulnerable to fraud, waste, and abuse and prevents NARA from meeting the intent ofthe
FECA. Specifically;

   1) long-term case files are not monitored/managed to reduce costs and expedite the
      injured employee's return to work.
   2) NARA lacks a formal return-to-work program offering injured employees light
      duty options that are appropriate, productive, and in compliance with FECA
      requirements;
   3) verification protocols are not effectively performed to ensure proper payment of
      chargeback benefits;



                                              8
                         National Archives and Records Administration
                                                                         OIG Audit Report No. 09-10


    4) 	 NARA does not consistently monitor COP payments to ensure appropriate
         payment as established by FECA guidelines;
    5) 	 comprehensive written policies and procedures do not exist to effectively
         establish appropriate management controls;
    6) NARA personnel responsible for the WCP have not been properly trained to
         ensure injured employee needs are met and program costs are controlled;
    7) 	 case files were missing and those maintained lacked adequate documentation; and
    8) 	 employee claims were not processed timely.

Long-Term FECA Cases Were Not Consistently Reviewed and Monitored

Long-term case activity and related files were not monitored or managed in order to take
advantage of opportunities to ensure program integrity, reduce costs and expedite the
injured employee's return to work. lO This failure also served to expose NARA to the risk
of WCP related fraud and abuse.

Our review disclosed that NARA's annual FECA benefit costs nearly doubled from
approximately $600,000 in 1998 to nearly $1.2 million in 2008. Over 60 percent ofthis
cost is attributable to employees with long-term disabilities placed on OWCP's periodic
role. During the course of our review we reviewed 19 long-term cases to determine the
frequency of file reviews and medical monitoring (see Table 2 on page 11 ).11 Of the 19
cases reviewed, we found:

    • 	 Only four cases had been reviewed in fiscal year 2008 (21 percent); most long­
        term injury cases had not been managed in over five years.
    • 	 Three NARA case files had not been updated in over ten years and four case files
        were reported as missing.
    • 	 Only seven case files (37 percent) had second opinion medical evaluations; most
        cases did not have updated medical evaluations.

Furthermore, many of the cases can be categorized as "red flag cases" as they meet
criteria that highlight potential fraud and abuse of the WCP to the detriment ofNARA
and the taxpayer. We identified eight red flag cases (42 percent) based on the
infrequency of medical expenses or the type of medical care documented.

The GAO has reported FECA provides injured employees with very generous benefits
which critics believe create an incentive for abuse by employees extending their claims
even though they may be able to return to work. These benefits include tax-free

10 20 CFR 10.506 states, an "employer may contact the employee at reasonable intervals to request periodic
medical reports addressing his or her ability to return to work." However, OWCP is required to review the
medical evidence for long-term disability cases according to the designated pay/case status code: (1) PR
cases, re-employment or earning capacity has not been determined, are reviewed annually; (2) PW cases,
reduced compensation reflecting a partial wage earning capacity or actual earnings, are reviewed every two
years; and (3) PN cases, formally determined to have no wage earning capacity or re-employment potential
for an indefinite future, are reviewed every three years.
11 We reviewed NARA case files and OWCP's on-line inquiry system, Agency Query System (AQS) to
determine the date of the latest file review and medical update.

                                                    9
                              National Archives and Records Administration
                                                                  OIG Audit Report No. 09-10


payments of up to 75 percent of earnings. Moreover, there is no mandatory retirement
age for employees collecting FECA benefits. Consequently, those who, in effect "retire
on the FECA" will generally receive greater amounts than career employees who retire
normally.

Case Example: In November 1993, an employee was accepted into the WCP for
temporary post-traumatic stress disorder. Three years later a medical re-evaluation found
that "there is no evidence of post-traumatic stress disorder. .. this patient is employable at
her current job." The referee medical opinion states the employee should, "be disabled
from all employment with the Federal Government and specifically with the National
Archives, but would not preclude the possibility of alternative employment outside the
Federal Government." The last documentation of case management is dated April 14,
1997. NARA has since paid nearly $538,000 in taxpayer's funds on this case over the
last ten years without any vestiges of attention or scrutiny.




                                              10
                          National Archives and Records Administration
                                                                                                                                                                                         OIG Audit Report No. 09-10


    NOTE: The "X's" in this table are redactions pursuant to FOIA exemption b(6)
            I
    Table 2: Long-Term Case Status, Last File Review, and Medical Documentation
                                                                                                                                                                                                                                                    ,i "';;'.
                                                                                                  total
                             ..                                                      Ditration    WCP                                                                        Last              Medica,l,Status (AQSMedicallnUing
Location
of Claim
                          Current
                           A2e
                                                       . Date of
                                                         Iniury
                                                                                     of Claim
                                                                                       (yrs)
                                                                                             .   Costs for  Case
                                                                                                 FY200.s •",$tatus
                                                                                                                                                                             File
                                                                                                                                                                       Rc:View
                                                                                                                                                                                                       ··.·.·.: •.•... Data) .
                                                                                                                                                                                                                                              ,',};.'


                                                                                                                                                                                         No mediealevaluation~. 97% forpharmaceutieals
xxx
-,.                               xxx                        xxx                        18       59,869.04                    PR.1994                                        1997        and sodal worker. Tllishia red flat< el!~e.
                                                                                                                                                                                         No medical evaluations. 85% for pharmaceuticals
                                                                                                                                                                                         lind medical supplies. There are only 7 doctor
XXX                               XXX                        XXX                        10       24,16751                     PR~1998                                        2001        visits. This is:dtred tlaJ: ease.
                                                                                                                                           :
                                                                                                                                                                                         No mediclil evaluations. AUmedican~ Hag
XXX                               XXX                        XXX                        10       52,332.72                    PR~2{)02                                 MiSSing           pharmaceuticals47,300. This is a r~d    cuse •                    ..:
                                                                                                                                                                                                                                                             ....


                                                                                                                                                                                         No medical evaluations. 95% for pbarmaceuticals;
XXX                               XXX                        XXX                        19       33,035.30                    PN-1999                                   Missing          3 doctor visits. This is a I'W flug ea~c.

XXX                               XXX                        XXX      '.                12       11,212.44                    PR-1997                                        2000        No medical evaluations. Regular phYsician visits.

                                                                                                                                           '-;'                                                                                      ..
                                                                                                                                ,     ",->                                               No medicll,ll!valuations. 80% jpedicat.Js for
XXX                               XXX                        XXX                        14       17,72751                     pit·J999                                       2000·.···   pbarmac~utieals. Thi$intRu fiu" ca*,~•..•.                   :
                                                                                                                                                                                         No mellie~lexpens~ ll'av~: l!eenpai.4since200.1.                   .....•.
                                                                                I.                                                                                                       Thi$ls lixl.'d fiilg cas~. .'. . ,   .        ,
XXX                               XXX                        XXx··                      17        7,501.95                    PN-200l                                        1998
                                                                                I                                                                                                        Second Opinion 2007ploDther medlcaJbiUs\i.sted
XXX                               XXX                        XXX                        31       29,90850                     PW-2000                                   Missfn~          for 8 years.Tllis is a rcd flag ¢It,C;  ,
                                                                                                                    .:                                                                          <.
rix                               XXX                        XXX                        28       147;398;19         >'PN2001                                                 1999        No medical evaluations. Regular Physician visits.
                                                                                                                       ':' : :      ....                                                 Vocationalrehabilitation-8/28/06; second 0Jllnio~
                                                                                                                                                                                         611112008; no medical paid duril1g the2 yeJ{i: gap~
                                                                                                                                      "•..>.:.:.                                         The secoJlG.vpluion stated t!t~ employee cOlvId .:
                                                I,·
                                                                                                                                                                                         re!ul'll t,\,v!itl4.. ,~:"f~.~~10tl !:!oesnotf~jwe
XXX                               XXX                        XXX                         4       22,694.40                    PR·2006                                        200S        sUltah!eJight dlltv ;vorl>.      ."       .. :'.' .'
                                                                .'.
                                                        .'
                                                                                                                                                                                         Vocational reh<ibilitatiQn (5/2()O8) and 2nd opinion
xxx.        ....,.                XXX                        XXX                         6       12,579.86 .:.                PR.open                                        2007        (1/2008).                 -'­
                                                                                                             ...                                                                ..'      Vo.cational rehabilitatiori~912006; 2nd opinion 3/2006;
                                                                                                                                                                                         (lnly 3 doctor visits since 2006. This is a n)d flag
XXX                               XXX
                                                   '.
                                                             XXX                         4        5,110.62         I',        PW-2007 1.)2005
                                                                                                                                                                       '.'
                                                                                                                                                                                         ~e.
                                                                                                                                                                                         ;.:                .               .   '.        .    ."
                                                                                                                                                                                                                                                       .
                                                                                                                                           ',:    :   <~ ,
                                                                                                                                                             ,:, ',.
                                                                                                                                                                                         No secondoJlinion evaluations•..RegulatPhysician
XXX
                        ':'.'
                                  XXX
                                                 ..'
                                                             XXX                         9       16,462.44
                                                                                                                    ..         PW"2005
                                                                                                                              '.: ..
                                                                                                                                                                I
                                                                                                                                                                             2008        visits. •.......
                                                                                                                                                                                                                 ..
                                                                                                                                                                                         No medical eva111ations; only 3 medic.1 supply.;
XXX                               XXX                        'Xxx                        6        6,941.50                    PW-2004                                        2008,       invoices. This!;, a red flag (:$se.•                                .
                                        "'."                                                                                                                                             Medical evaluation3I2Q05.Ii'ast due t1ll3 yeur 1'('­
XXX ...'.                         XXX                        XXX                         7       21,673.81                    PN-2006                                   Misslnl!
       :                                                                   ..
                                                                                                                                                                                         Vocational rehabilitation (2008); carpal tunnel
XXX             ..•..             XXX                        XXX                         5       24,798.89                    PR-2006                                        20.07       band suraery (2007); 2ndoninion (2006).
            •••••••••
                                                                                                                                                                                         Psychologist bi-weekly; cotltract t1urse thru 4/2006;
                                                                       ....
                                                                                                                                                                                         2nd opiniol1512007.           n;'(jul.'st a treaim,-nt
XXX                               Xxx                        XXX                         3       35,345.44                    PR-2007                                        2008 _cc    J!lUIl.     .
                                                                                                                                       ./                                                No ,medical evaluatiohs•. There are over 6(}
XXX                             cXXX                         XXX                        30       20,986.76           " PR~:l9~~,
                                                                                                                            ...... ::
                                                                                                                                                                             1995,
                                                                                                                                                                                 ;":"
                                                                                                                                                                                                                 ...
                                                                                                                                                                                         physicil!Jland painr~bal>Jlitation visits.
                                                                                                                                                                                                                      ,:"




XXX                     i<        XXX                        XXX                         4       59;056.67               ..   pk~io04                                        201)4       SecQndopinion 2007; 2008 primarily.llhysjcal therapy;>
                                                                                                                                                                                                                                             ....
                                               ......                                                                         .';                                                          ...
                                                                                                                                                                                           .
                                                                                                                                                                                                                        .,
                                          /
                                                                                                 608,803.55                                                                      ,



                    PR cases should be reviewed annually; PW cases should be reviewed every two years;
                    and PN cases should be reviewed every three years.

                                                                                                                              11
                                                                                        National Archives and Records Administration
                                                                         OIG Audit Report No. 09-10




NARA Lacks a Return-to-Work Program for Injured Employees

NARA has not developed a formal return-to-work (RTW) program for eligible
employees covered under NARA' s WCP .12 Therefore, the intent of the WCP is being
violated by NARA as some participants are not being offered the opportunity to work
while the program itself is subject to abuse. A return-to-work program is an effective
tool to help minimize FECA costs. Without such a program, NARA is exposed to the
risk ofpaying compensation benefits to employees who are able to return to work, but are
not offered the opportunity. Our audit revealed the following problems associated with
NARA's lack ofa RTW program:

    • 	 NARA has not developed guidance for creating productive light and limited duty
        positions. The lack of established limited duty work guidelines has resulted in
        NARA: (1) not accommodating a work restriction, thereby, paying a work
        capable employee to stay at home until they reach full recovery; or (2)
        accommodating a work restriction without regard for operational productivity. 13

        During our review of case files, we found examples where NARA paid FECA
        benefits to employees who were able to work. In one such case, a NARA record
        center employee sustained an injury requiring surgical intervention. The
        employee's doctor instructed that she could return to work, with restrictions,
        shortly after her surgery. Initially, the record center indicated they would
        accommodate her restrictions on a temporary basis. However, they did not offer
        her accommodation because she intended to apply for disability retirement.
        NARA paid this employee nearly $29,000 while she waited for her disability
        retirement approval.

    • 	 NARA does not have a policy guiding the number ofpermanent restricted duty
        positions it can accommodate, nor does it medically monitor WCP participants on
        limited duty status to identifY those that have fully recovered from their injuries.
        As a result several record centers have employees who have been on restricted
        duty for a number of years reducing the ability to accommodate a newly injured
        employee with temporary productive limited duty work. 14




12 OWCP Publication CA-810 states agencies should identify jobs suitable for injured employees, take
steps to reemploy recovered or recovering employees as soon as the medical evidence shows that is
possible, and to monitor the medical status of employees on limited duty for potential full recovery.
13 NR's Rocky Mountain Region Program Review dated September 4, 2007 states NRG has incurred
fmanciallosses due to higher costs for staffmg due to, in part, Workers' Compensation cases and light duty
restrictions. Further, record center AOs and Regional Directors we interviewed identified several
employees on limited duty status that were not productive.
14 OWCP's Publication CA-81O states agencies should monitor the medical status oflimited duty
employees for their ability to return to full capacity work so that an agency can accommodate a newly
injured employee with work restrictions,

                                                   12
                              National Archives and Records Administration
                                                                         OIG Audit Report No. 09-10


           Regional record center AOs report there are very few limited duty work
           opportunities available. Thus, record centers should address whether permanent
           limited duty positions should be offered while monitoring the medical progress of
           those already in limited duty positions. These RTW program guidelines would
           ensure newly injured employees have an opportunity to recover from their
           mJunes.

      • 	 NARA does not actively refer injured employees with permanent work restrictions
          to OWCP's vocational rehabilitation program. Since regional record centers
          indicate they do not have long-term limited duty positions available, NARA must
          place those employees with permanent injuries into OWCP's vocational
          rehabilitation program as soon as possible. This will allow the injured employee
          to be out-placed with another employer and will reduce WCP costs to NARA.
          Because many NARA AOs are unfamiliar with the OWCP process, we found
          cases where NARA passively waits for OWCP to begin the vocational
          rehabilitation process. In one such case an injured NARA employee recovered
          from her injuries, but had permanent work restrictions directed by her doctor.
          NARA did not return this employee back to work because it lacked a permanent
          restricted capacity position and did not request OWCP place this employee in a
          vocational rehabilitation program. NARA paid compensation benefits for one
          year, at a cost of $45,000, before OWCP placed this employee in a vocational
          rehabilitation program and the employee was placed with another federal agency.

       • 	 Injured employees returning to work on restricted duty are not given written job
           offers to describe job expectations in accordance with their doctor's orders.
           FECA law and guidance provided by DOL clearly state specific duties and
           physical requirements of accommodation be presented in writing within two
           business days of the job offer 15 and copies sent to OWCP for review and
           approval. The lack of written job offers exposes NARA and employees to risk as
           employees on restricted duty may be performing work which is not suitable. The
           AOs interviewed stated they were not aware that FECA required written job
           offers when returning an injured employee with restrictions back to work.

Finally, injured employees were not advised of their rights and responsibilities at the time
of injury. By law, the employing agency is required to promptly notify an injured
employee of their rights and responsibilities including the responsibility to return to work
when they are able. By neglecting to inform injured employees of their rights and
responsibilities, NARA has missed an opportunity to clearly communicate its expectation
that an injured employee take all necessary action to expedite their return-to-work.

NARA Did Not Verify Quarterly Chargeback Billing Reports




15
     20 CFR to.507; Title 20 CFR (b) (c) (d); and CA-810, 8-4 (b) (d).

                                                      13
                                National Archives and Records Administration
                                                                         OIG Audit Report No. 09-10


NARA routinely failed to verify its FECA-related chargeback bills from DOL. 16 Thus,
increasing the risk errors could go undetected. This deficiency resulted in erroneous
program payments.

Based upon GAO Report 08-284, dated February 2008, entitled Federal Workers'
Compensation; Better Data and Management Strategies Would Strengthen Efforts to
Prevent and Address Improper Payments, NARA cannot place reliance solely upon
OWCP to provide accurate chargeback reports. In the 2008 report, GAO states OWCP
has not established an effective strategy for managing improper payments in the FECA
program and overpayments occurred because OWCP relies on unverified, self-reported
information from claimants which is not always timely or correct. As illustrated in the
case example below, the deficiencies cited in this report came to fruition when an injured
NARA employee's automatic benefit payments were not canceled by OWCP upon her
return to work.

Case Example l7 : An injured employee, on periodic roll status, was overpaid $6,521.85
because OWCP paid full disability benefits concurrent with NARA's part-time
compensation. This employee returned to work with limited hours as instructed by her
physician. It took OWCP over two years before the error was detected at which time a
complex collection process was initiated. Had NARA cross-referenced the chargeback
billing report to disability payment information provided by DOL's AQS on-line access,
NAH would have likely detected this error.

NARA's quarterly chargeback billing statements are maintained by the Financial
Services Division, Budget Branch (NABB). NABB budget personnel have procedures
ensuring employees listed on NARA's chargeback billing statement are actually NARA
employees. However, disability compensation rates received by the injured employee are
not reviewed for accuracy. During the initiation of an injury claim the employing agency
will report to OWCP the injured employee's current rate of pay. Currently, there are no
established procedures to verify OWCP correctly computes the subsequent benefit from
information provided by the employing agency. Furthermore, should an employee
return-to-work or die, there is no verification or procedure that terminates periodic roll
(automatic) payments.

Continuation of Pay Benefits Were Not Consistently Monitored

Continuation of Pay (COP)IS benefits were not consistently monitored resulting in
overpayments to NARA employees claiming work-related injuries. The intent ofthe

16 OWCP Publication CA-810 states each agency receives a quarterly report listing all cases and costs that
should be used to identify and correct errors before these charges appear on the annual chargeback billing
statement.
17 Auditors found other OWCP errors identified by OWCP and reported to NARA. Auditors did not
independently review compensation rates for benefits including Schedule A wards because the case files did
not contain adequate documentation to do so.
18 The Office of Workers' Compensation Programs Publication CA-81O states; "the FECA provides that an
employee's regular pay may continue for up to 45 days of wage loss due to disability and/or medical
treatment after a traumatic injury."

                                                   14
                              National Archives and Records Administration
                                                                         OIG Audit Report No. 09-10


COP provision is to avoid interruption of the employee's income while their case is being
adjudicated. Failure to ensure the accuracy and integrity of COP payments resulted in
erroneous and excessive disbursements ofNARA funds as OWCP does not pay COP;
rather, these benefits are paid and tracked by the claimant's employer.

We found several instances where COP was paid beyond the 45 day statutory limit19
including a case where a NARA employee was inadvertently paid for 204 days, at a cost
to the government of$29,163.60, while simultaneously receiving disability pay. We
informed NAH of this overpayment and NAH began working with OWCP and GSA to
recover these funds from the employee.

NARA Lacks Comprehensive WCP Written Policies and Procedures

NARA has not developed written WCP policies and procedures. Current officials with
WCP duties and responsibilities agreed the complexity of the workers' compensation
program warrants written guidance. The effect of not having WCP guidance has
contributed to the inconsistent and ultimately deficient program oversight and
administration.

In response to an OIG generated questionnaire and subsequent interview, AOs informed
the auditors that they lacked necessary guidance from NAH to effectively return
employees back to work.

Attributes of a well documented and defined WCP would include, but not be limited to,
the following: (1) defined program structure and clear assignment of program roles and
responsibilities;' (2) written guidance and training for NARA personnel involved in the
WCP; (3) development of a return-to-work program clearly identifying productive
limited duty assignments; (4) case management protocols for long-term injuries; (5)
verification procedures for COP benefits and chargeback cost reports; and (6)
management control tools to include a master list of active cases and claimant case file
control logs.

Workers' Compensation Training for Responsible Officials is Often Lacking

NARA did not provide appropriate WCP training to supervisors and regional AOs
involved with handling workers' compensation cases. During the audit we found the
WCP training received by the regional AOs was infrequent, ineffective and did not
address the core WCP management principles necessary to effectively reduce FECA
benefit costs. 20 Specifically, the auditor's identified that of the eleven AOs interviewed:


19 This condition resulted from errors and confusion as to the technical computation of the allowance. The
responsibility for this calculation, per the AOs interviewed, has been relegated to individual supervisors
and timekeepers and thus prone to error.
20 The DOL training classes attended by the AOs, The Basic Compensation Specialist Workshop, did not
address WCP management, rather, it was an OWCP form processing overview and training course. DOL
offers an Advanced Compensation Specialist Training course that addresses management-level issues such
as light and limited duty assignments and re-employment oflong-term disabled employees.

                                                    15
                              National Archives and Records Administration
                                                                       OIG Audit Report No. 09-10


three Regional Record Center AOS21 have not received any workers' compensation
training; five AOs received training over four years ago; and, one AO reported her
training was over 13 years ago. Only two regional AOs have had DOL sponsored
training within the past two years. The regional AOs interviewed readily admit they
lacked the specialized knowledge necessary to fully manage and administer their regional
WCP.

Additionally, the AOs interviewed stated supervisors did not have adequate training and
suggested NAH require supervisory level training. NAH officials stated they have
recognized the need for more workers' compensation training for both AOs and
supervisors. Since April 2008 NAH has been conducting on-site training. Sites visited
and AOs trained by NAH Employee Relations Specialist include: the Atlanta Records
Center (NRC), Denver Records Center (NRG), and Suitland. The NRG AO, NRC AO,
and NRC Regional Director reported to the auditors that their level of workers'
compensation knowledge greatly improved as a result of the recent training provided. In
addition, NAH officials stated they have revised the Introduction to Supervisor Training
course and resource materials by adding WCP training materials.

Some Case Files Missing While Those Located Lacked Documentation

NARA lacks a master inventory list identifying NARA's active workers' compensation
cases. Given this deficiency, OIG auditors were still able to request 34 WCP case files
for review?2 Of this sample popUlation, 23 percent were identified as missing. Those
that could be produced were routinely disorganized and incomplete thereby hindering
useful case review and management.

NAH did not have a master inventory list of workers' compensation claims for case status
tracking purposes. WCP case files were not centrally located at NAH. Case files were
disbursed between central office where NAH managed case files and the regional offices
where AOs managed WCP cases. As a result, NAH could not ensure all WCP case files
had received attention. Without an inventory log: (1) opportunities to identify critical
management actions are missed and/or neglected; and (2) case files are not inventoried or
tracked.

We requested thirty four case files for our review, eight ofthese files were identified as
missing (23 percent). Prior to our audit, NAH (the office ultimately responsible for
NARA's WCP) was not aware any files were missing. At the cessation of field work,
these files remained missing.

The DOL does not define the content an agency is to maintain in their internal case files.
Lacking definitive criteria, the auditors sought to identify whether OWCP case files were


21 One of the three included the AO for the DaytonlKingsridge Federal Records Centers (NRD). NRD
currently has more workers compensation claims than NARA's other record centers.
22 OWCP Publication CA-810 states that an agency should establish a recordkeeping system which will
enable it to maintain copies of claim forms, medical reports, correspondence with OWCP, and other
materials related to each compensation claim in an orderly fashion.

                                                  16
                             National Archives and Records Administration
                                                                        OIG Audit Report No. 09-10


maintained in a consistent format and contained up-to-date information necessary to
support the work of oversight officials and independent review/audit. The auditors
defined that individual case files do not contain a standard case control or file log, rather
content is unstructured and disorganized, thus impeding ability to review and analyze
case activity and status. Likewise, documents that would be helpful to include were not
required and were not incorporated in the files. Examples of documents that were not
housed in the files and the benefit that would result from their inclusion follow:

               1. 	 Injury investigations were not thoroughly conducted (all but one case
                    file). A well-documented injury investigation is essential for
                     substantiating or raising doubts about the validity of claims. Although
                     this generally involves obtaining third-party witness statements and
                    providing a detailed description of the time, place, and cause of the
                     injury, we found these elements were missing in all but one case file.

               2. 	 Medical status reports were not used to request information from
                    doctors on long-term disability cases (See finding titled Long-Term
                   FECA Cases were Not Consistently Reviewed and Monitored on page
                   9).

               3. 	 Form CA-1032, Claimfor Continuance o/Compensation under the
                    Federal Employees' Compensation Act was not included in claim files
                    (all case files). On an annual basis, FECA regulations require OWCP
                   verify continued eligibility of claimants receiving automatic monthly
                   compensation. Among other things, the Form CA-I032 requires the
                   injured employee to inform OWCP of any current earnings or other
                   federal benefits and any change in their dependents that would affect
                   their continuation of benefits, or at least, their rate of benefits. If the
                   claimant fails to return this annual certification within a specified time
                   period, federal regulations require OWCP to suspend compensation
                   benefits until the certification is returned?3

               4. 	 Agency Query System (AQS) case status updates was notfound in case
                    files (most case files). Another useful tool for verifying accuracy of
                   claimant benefits is OWCP's on-line inquiry system, AQS. The AQS is
                   a secured Internet site that provides access to authorized agency
                   personnel on their FECA injury claims. Available data includes current
                   claims status, as well as, compensation and medical payment histories.
                   Unlike the chargeback billing report that shows totals for compensation



23Social Security Administration's (SSA) Office of the Inspector General found that nearly seven percent
of claimants OWCP identified with no wage-earning capacity actually had earnings reported to SSA. In
response, DOL reported that: " ...Claims Examiners are not consistently following up with claimants to
ensure that a Form CA-1032 is received annually for each claimant, as applicable; however, payments
continued to be made to non-responsive claimants."


                                                   17
                             National Archives and Records Administration
                                                                       OIG Audit Report No. 09-10


                   and medical payments, the AQS provides detailed payment amounts.
                   We found very few printed AQS inquiries in NARA's claimant files.

              5. 	 Communication with the injured employee was not documented in case
                   files (most cases files). We noted that very few case files included
                   documentation highlighting communication with the injured employee.
                   The Office of Workers' Compensation Programs Publication CA-810,
                   Injury Compensation for Federal Employees, Chapter 9, Section 9-3
                    states federal agencies should "stay in touch with injured employees
                   while they are receiving compensation." When case management and
                    communication with an injured employee is not maintained there is
                    increased risk of fraud and abuse.

               6. 	 Personnelform SF-50s was not found in case files (all case files).
                    Personnel form SF-50s should be included in the case file to provide
                    documentation and verification of: (1) NARA employment at the time
                    of injury; (2) correct program cost codes for budget/accounting
                    purposes; (3) rate of pay reported to OWCP; and (4) other personnel
                    changes affecting OWCP benefits such as cost of living increases, health
                    benefit deductions, and retirement election.

Workers' Compensation Claims Were Not Processed Timely

DOL reports 30 percent of the 33 claims NARA submitted in the third quarter of fiscal
year 2008 were not timely.24 Late claim submissions can result in delayed compensation
benefits and medical bill payments. More importantly, timely claim submission reduces
NARA's costs by allowing earlier initiation of case management actions designed to
expedite injury recovery and return to work.

As part of the Safety, Health and Retum-to-Employment (SHARE) Initiative,
President Bush directed federal agencies to establish goals and track
performance in four major areas critical to financial cost management of
accidents in the federal workplace. One of the four critical areas targeted for
performance improvement is the timely reporting of injuries and illnesses.

OWCP, using information provided by the employing agency, determines timely
submission of a workers' compensation claim for each federal agency. The most recent
DOL report indicates 86 percent of claims are filed timely by all federal agencies
combined. However, NARA's most recent timely rating of70 percent is below the
national average and below NARA's stated SHARE initiative goal of77 percent.

During the NAH Workers' Compensation presentation at the Administrative Conference
held at Archives II on April 22, 2008, several AOs stated they were not aware of DOL's
requirement to have claim forms submitted within 10 days and requested NAH provide

24 Federal regulations require the employing agency to complete and transmit Forms CA-l and CA-2 to
OWCP within 10 working days after receipt from the employee.

                                                  18
                             National Archives and Records Administration
                                                                   OIG Audit Report No. 09-10


written guidance to document the FECA process they should follow. The NAH
Employee Relations Specialist stated many regional AOs were not aware of proper claim
form preparation and did not indicate the correct date a claim was received. In her
opinion, stating the incorrect date could result in a claim being identified as "late" by
OWCP.


Recommendations:

In order to strengthen the integrity and controls over NARA's WCP we recommend that
the Acting Assistant Archivist for Administration direct the Director of the Human
Resources Services Division to:

  1. 	 Develop and define an appropriate organizational structure for NARA's WCP. 

       Specifically: 

       a. 	 Determine whether, given the number of cases and available resources, the
            management and administration ofNARA's WCP should be centralized or
            decentralized.
       b. 	 Provide the necessary NAH personnel to develop and manage NARA's
            Workers' Compensation Program.
       c. 	 Define the roles and responsibilities of those involved with NARA's WCP and
            develop (1) Position Descriptions accurately describing major areas of
            responsibility and (2) performance measures and employee performance
            standards encouraging effective management ofNARA's WCP.
       d. 	 Develop an appropriate training program for personnel involved with NARA's
            WCP. This training should be documented when completed and refresher
            training should be provided on a periodic basis.

  2. 	 Review all NARA's current long-term case files and develop an action plan to bring
       these files current by (1) contacting OWCP and requesting key case documentation
       missing from NARA files, (2) obtaining second opinion medical reports where
       appropriate and (3) instituting a quarterly review of all case files.

  3. 	 Develop a retum-to-work program that addresses actions such as: (a) when to offer
       short-term or permanent restricted job duties; (b) defining and identifying a pool of
       productive limited short-term duty positions to be used for newly injured
       employees; (c) efficient and timely referral to DOL's vocational rehabilitation
       program when permanent restrictions cannot be accommodated; (d) periodic
       monitoring of medical restrictions for those offered limited duty work; and (e)
       compliance with FECA laws such as notifying injured workers of their rights and
       responsibilities and putting job offers in writing for limited duty positions.

  4. 	 Verify Workers' Compensation benefits by;
       a. 	 Developing procedures to promptly and continuously verify, validate, and
            document DOL's quarterly chargeback reports for accuracy and propriety
            including procedures to resolve any discrepancies.


                                              19
                          National Archives and Records Administration
                                                                 OIG Audit Report No. 09-10


   b. 	 Developing processes to track and monitor NARA's continuation of pay
        benefits by including procedures such as: (a) coordinating with GSA Payroll
        Division to develop a COP benefits report; (b) developing a COP tracking
        information sheet to be included in each disability case file; (c) developing
        reconciliation procedures comparing the GSA COP benefits paid report to the
        COP tracking information sheet; (d) developing corrective action procedures for
        overpayments. These procedures should be included in NARA's
        comprehensive written policies and procedures for its WCP.
   c. 	 Ensuring COP overpayments identified in this report are recovered.

5. 	 Develop comprehensive written policies and procedures for NARA's Workers'
     Compensation Program. These written policies and procedures should address
     FECA regulations ensuring NARA meets its responsibilities.

6. 	 Develop case management protocols and include these procedures in NARA's
     comprehensive written policies and procedures document (see recommendation #2
     above). Specifically:
     a. 	 Develop procedures to periodically review long-term cases, minimally on a
          quarterly basis, by maintaining contact with the injured employee and
          requesting updated medical reports.
     b. 	 Develop a master listing of all NARA's active workers' compensation cases.
          This listing should highlight the current status of the case and identify dates
          when critical case actions need to be completed.
     c. 	 Develop a case file controlloglchecklist to ensure case files contain all 

          necessary documentation which would allow verification of beneficiary 

          eligibility and proper authorization of benefit payments. 

     d. 	 Develop monitoring procedures to ensure timely submittal of claims to OWCP.
     e. 	 Identify missing case files and reconstruct these files as appropriate.




                                            20
                        National Archives and Records Administration
..                                                                                     Attachment A

                        National Archives and Records Administration
                                                                                                 8601 Adelphi Road
                                                                                College Park, Maryland 20740-6001


     Date:      February 27, 2009

     To:        Susan Ashtianie, Director
                Policy and Planning Staff (NPOL)

     From:      Richard Judson, Acting Assistant Archivist for Administration

     Subject:   Audit ofNARA's Workers' Compensation Program


                This memorandum responds to the Office of Inspector General (OIG) draft report entitled
                "Audit ofNARA's Workers' Compensation Program." I have reviewed the report and concur
                with the recommendations contained therein.

                The Office of Administration is comnii.tted to improving NARA's Workers' Compensation
                Program (WCP) and to reducing the agency's WCP costs. I look forward to receiving the
                OIG's final audit report and thank the OIG audit staff for the collaborative spirit in which they
                approached this audit.




                         ssistant Archivist for Administration




                                       NARA 's web site is http://www. archives.~ov
